<html>
<title> - FIFTH IN A HEARING SERIES ON SECURING THE FUTURE OF THE SOCIAL SECURITY DISABILITY INSURANCE PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 FIFTH IN A HEARING SERIES ON SECURING

                   THE FUTURE OF THE SOCIAL SECURITY

                      DISABILITY INSURANCE PROGRAM
=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2012

                               __________

                          Serial No. 112-SS21

                               __________

         Printed for the use of the Committee on Ways and Means




                  U.S. GOVERNMENT PRINTING OFFICE
80-315                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               SHELLEY BERKLEY, Nevada
LYNN JENKINS, Kansas                 JOSEPH CROWLEY, New York
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                      SAM JOHNSON, Texas, Chairman

KEVIN BRADY, Texas                   XAVIER BECERRA, California
PATRICK J. TIBERI, Ohio              LLOYD DOGGETT, Texas
AARON SCHOCK, Illinois               SHELLEY BERKLEY, Nevada
RICK BERG, North Dakota              FORTNEY PETE STARK, California
ADRIAN SMITH, Nebraska
KENNY MARCHANT, Texas


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 14, 2012 announcing the hearing............     2

                               WITNESSES

Richard Burkhauser, Ph.D., Professor, Cornell University, Ithaca, 
  New York, and Adjunct Scholar, American Enterprise Institute...     7
David C. Stapleton, Ph.D., Director, Center for Studying 
  Disability Policy, Mathematica Policy Research.................    20
Marty Ford, Director of Public Policy, The Arc of the United 
  States, on behalf of the Consortium for Citizens with 
  Disabilities Social Security Task Force........................    33
Daniel Bertoni, Director, Education, Workforce, and Income 
  Security, Government Accountability Office.....................    44
Jill Houghton, Executive Director, U.S. Business Leadership 
  Network........................................................    55
Nadine Vogel, Founder and President, Springboard Consulting, 
  Mendham, New Jersey, on behalf of the Society for Human 
  Resource Management............................................    66

                       SUBMISSIONS FOR THE RECORD

CFE, statement...................................................   150
SSSC, statement..................................................   155

                        QUESTIONS FOR THE RECORD

Daniel Bertoni...................................................   122
David C. Stapleton...............................................   129
Jill Houghton....................................................   140
Nadine Vogel.....................................................   143
Richard Burkhauser...............................................   145


                 FIFTH IN A HEARING SERIES ON SECURING

                   THE FUTURE OF THE SOCIAL SECURITY

                      DISABILITY INSURANCE PROGRAM

                              ----------                              


                       FRIDAY, SEPTEMBER 14, 2012

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room B-318, Rayburn House Office Building, the Honorable Sam 
Johnson [chairman of the subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

               Chairman Johnson Announces the Fifth in a

              Hearing Series on Securing the Future of the

              Social Security Disability Insurance Program

Friday, September 7, 2012

    U.S. Congressman Sam Johnson (R-TX), Chairman of the House 
Committee on Ways and Means Subcommittee on Social Security, today 
announced the fifth hearing in the series entitled ``Securing the 
Future of the Disability Insurance (DI) Program.'' This hearing will 
focus on key challenges facing the DI program and options to address 
those challenges. The hearing will take place on Friday, September 14, 
2012, in room B-318 Rayburn House Office Building, beginning at 9:30 
a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Subcommittee's hearing series has explored the challenges 
facing the Social Security Disability Insurance (DI) program, including 
the findings of the 2012 Annual Report of the Board of Trustees that DI 
revenues will cover only 79 percent of benefits beginning in 2016 due 
to the aging of the baby boomer workforce into their most-disability 
prone-years, the increased number of women in the workforce now 
eligible for benefits should they become severely disabled, decisions 
made by Congress regarding the financing of the DI Trust Fund and the 
eligibility criteria for benefits, and the recent economic downturn. 
The Congressional Budget Office projects that as a result of the recent 
recession and slow recovery, the number of disabled workers will 
continue to rise over the next few years.
      
    The Social Security Subcommittee began its five-part series 
examining the DI program in 2011. The series' first hearing provided an 
overview of the program, its history, the importance of its benefits, 
the growth of the program and the drivers of that growth along with the 
program's current and future financing challenges. The second hearing 
focused on the Social Security Administration's program integrity 
efforts to minimize improper payments and protect taxpayer dollars from 
waste, fraud, and abuse. The third hearing examined how disability 
eligibility decisions are made, including the definition of disability 
and the Federal-State relationship. The fourth hearing considered the 
Social Security appeals process including its history, legal 
requirements, and whether the current process provides fair, accurate, 
and consistent outcomes while balancing the needs of claimants and 
taxpayers.
      
    In the hearing series, many questions have been raised about the 
current DI program. These include: is the concept of disability that 
prevailed at the start of the program in 1956 still appropriate today 
given advances in medicine, rehabilitation, and the workplace? Are 
there ways to better support individuals with disabilities to stay in 
the workplace? Can the decision-making process be strengthened so that, 
when appropriate, awards are made as early as possible and decisions on 
applications and appeals are made with greater accuracy and 
consistency?
      
    Increasingly, experts are researching these questions and 
developing proposed solutions. Employers are also finding new ways to 
retain in the workforce those individuals with disabilities who want to 
work. The imminent fiscal challenge facing the DI program has made 
discussion of these issues both relevant and timely for the final 
hearing of this series.
      
    In announcing the hearing, Social Security Subcommittee Chairman 
Sam Johnson (R-TX) said, ``We must and we will secure the future of 
this essential program for the millions of Americans who count on 
benefits. As we look at options to keep that promise, we must balance 
the needs of those with disabilities with the needs of workers who 
support the program. Striking that important balance will result in a 
program that makes the right decision as soon as possible, supports 
work, prevents fraud, and treats all workers fairly.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on options to address the key structural and 
fiscal challenges facing the disability program.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word or 
WordPerfect document, in compliance with the formatting requirements 
listed below, by the close of business on Friday, September 28, 2012. 
Finally, please note that due to the change in House mail policy, the 
U.S. Capitol Police will refuse sealed-package deliveries to all House 
Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/

                                 <F-dash>

    Chairman JOHNSON. We have a short morning this morning, and 
a lot of good testimony to listen to, so we are going to go 
ahead and get started. Mr. Becerra is on his way, so the 
committee will come to order.
    Welcome to the fifth and last hearing in our series on 
Securing the Future of the Social Security Disability Insurance 
Program. Over the course of the series we have heard about the 
program's striking and continuing growth at a time when workers 
paying into the system have increased nearly 70 percent between 
1970 and today. The number of people collecting disability 
checks has increased by over 300 percent, like from 2.6 to 10.8 
million people. By 2021 the number of beneficiaries will exceed 
12 million and total benefits paid will reach over $200 
billion.
    That is a 52 percent increase over the $132 billion paid in 
benefits last year. We have heard how some of that growth is 
caused by factors like the size of the overall workforce, more 
women in the workforce, and the aging of the baby boomers. And 
some of the growth has been caused by Congress' decisions that 
expanded the ways in which people could qualify for benefits.
    We have heard about the people who try to defraud the 
system by falsely claiming they are disabled and we have seen 
some of them. We have heard that Social Security's efforts to 
conduct continuing eligibility reviews are a shifting priority, 
adding unnecessary costs and weakening public trust in the 
program. And we have heard how last century's view of 
disability hasn't kept up with this century's advances in 
medicine, technology, and the workplace, resulting in a program 
that pays people not to work.
    In fact, GAO has designated the program high risk because 
the medical criteria and occupational information relied on to 
make benefit decisions are out of date.
    And we have heard that the World Health Organization and 
many distinguished medical experts look at disability today as 
the individual's ability to function in different environments, 
especially with assistance of technology or workplace 
accommodations for the disabled.
    In the hearing series, we have also heard how important it 
is to make the right decision as early in the process as 
possible. We have walked through the complicated lengthy and 
open-ended initial determination and appeals process that 
enables claimant representatives to drag out appeals in hope of 
getting awards. And we have heard how outlier judges, many of 
whom award disability benefits in most of the cases they hear, 
in other words, rubber stamping, can't be managed or questioned 
about their decisions and leaving the process virtually 
unmanaged and adding more costs.
    And we have also heard how the courts have taken it upon 
themselves to reinterpret Congress' will, creating inequities 
and inconsistencies. We have heard again and again that we must 
keep this program strong for those who truly cannot work. And 
we have heard the Disability Insurance Program is on an 
unsustainable path, and that unless Congress acts, in 2016 the 
program will be able to pay only 79 percent of the benefits, 
putting individuals with disabilities at risk.
    The hearing series has been about how the Disability 
Insurance Program works, problems plaguing the program, and the 
need for sensible changes to make it work better. This series 
has raised important questions. Is the concept of disability 
that existed in 1956 still appropriate today in this 21st 
century economy? Are there better ways to support individuals 
with disabilities who can remain in the workplace instead of 
paying them to stop working? And are there ways to award 
benefits sooner and provide a fair, timely appeals process? And 
finally, what are the risks of doing nothing?
    Today we will hear several views about where the existing 
system falls short and how it might be fixed as well as some 
new approaches that are already working. What each of our 
witnesses has in common is they believe we can fundamentally do 
better, and I thank you all for that.
    We will also hear from the business community on the 
amazing success of employers who are hiring those with 
disabilities and the challenges they face keeping those with 
disabilities in a job.
    I want to thank the members of this subcommittee for 
engaging in this much needed conversation, and I know we are 
all committed to continuing this dialogue. Together, including 
Mr. Becerra and I, we will find answers to securing the future 
of the Disability Insurance Program for generations to come.
    I now recognize Mr. Becerra for any comments you may have, 
sir.
    Mr. BECERRA. Mr. Chairman, thank you very much and thank 
you to our witnesses for being here.
    Severely disabled American workers have earned the right to 
receive disability benefits and they rely on them. One hundred 
sixty million Americans contribute to Social Security. They 
need protection for themselves and their families when they 
retire, or if they should die, they also get the benefits, or 
if they become disabled, severely disabled, they get the 
benefits.
    It is not easy to qualify for Social Security disability 
benefits. DI is only for people who paid into the system, 
first; second, it is only available to Americans with the most 
severe impairments, Americans who are dying or who are 
generally at a point where they can't even earn a poverty level 
wage at any job in the national economy because of a long-term 
condition.
    Fewer than half of Americans who apply for DI benefits are 
awarded such benefits, even after a lengthy appeals process. DI 
benefits aren't especially generous. A typical worker receives 
about $13,000 a year which replaces about half the earnings 
that worker had while working. For nearly half of DI 
recipients, Social Security provides 90 percent or more of 
their total income.
    The Social Security Disability Insurance Trust Fund's 
challenge, which we are hearing more and more about, is modest 
and it is stable. Although the Social Security system overall 
can pay full benefits until 2033, the DI Trust Fund considered 
on its own is projected to be able to pay only about 80 percent 
of scheduled benefits starting in 2016. Fortunately, the DI 
shortfall is relatively modest. Over the next 75 years, the 
financing shortfall is equal to about 0.1 percent of GDP or, to 
put it in context, that is about one-eighth of the cost of 
extending the Bush tax cuts for people who earn more than 
$250,000 a year.
    The DI shortfall, by the way, is not a surprise. When 
Congress last rebalanced the allocation of payroll taxes going 
into the two Social Security trust funds, it did so knowing 
that the amount allocated to DI would result in a shortfall in 
2016, the same date as projected in the most recent trustees 
report. The recent growth in DI is also not a surprise since it 
is due primarily to demographic changes and other predictable 
factors in combination with, of course, the recession. The 
biggest factor is demographic. The baby boom generation has 
reached its most disability-prone years. More women have worked 
long enough to be protected in the event they become severely 
disabled and can no longer work. Finally, the economic downturn 
has also made it more difficult for people with disabilities to 
obtain work.
    I do think it is very important that we operate DI in the 
most fiscally responsible way possible, and we have to here in 
Congress take responsibility for our own actions in how we 
provide the resources for the Social Security Administration to 
do its work, both as a program for those who are retired and 
those who are disabled. As we work to address the challenges 
that face us and to strengthen DI for the future, we must first 
do no harm.
    As we talk about the possible changes to Social Security 
disability insurance, we should keep in mind that American 
workers have paid for their Social Security benefits. Over its 
lifetime, Social Security has taken in $15.5 trillion and only 
paid out $12.8 trillion, leaving an overall trust fund surplus 
of $2.7 trillion. Surplus.
    I am concerned that experiments that some would like to 
perform on the DI program could be harmful to those with severe 
illnesses or disabilities. They could increase employment 
discrimination against the disabled, or they might deny or 
delay earned benefits for those who need them, increasing 
hardship for already struggling American families. There is 
little evidence to suggest that people who qualify for DI are, 
in fact, able to work at any kind of self-supporting level.
    Mr. Chairman, I hope we can work together on a bipartisan 
basis to strengthen DI, always applying the test that we should 
first do no harm. And with that, Mr. Chairman, I think we have 
an opportunity to hear from some very important witnesses and I 
hope that we are able to then move forward with that 
information in a way that lets us do right by this important 
program for so many millions of Americans.
    With that I yield back the balance of my time.
    Chairman JOHNSON. Thank you.
    As is customary, any member is welcome to submit a 
statement for the hearing. Before we move on to our testimony 
today I want to remind our witnesses to please limit your oral 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made part of the hearing record.
    We have one witness panel today, and seated at the table 
are Richard Burkhauser, Ph.D., Professor, Cornell University, 
Ithaca, New York and Adjunct Scholar, American Enterprise 
Institute. Thank you for being here. David Stapleton, Ph.D., 
Director, Center for Studying Disability Policy, Mathematica 
Policy Research; Marty Ford, Director of Public Policy, The Arc 
of the United States on behalf of the Consortium for Citizens 
with Disabilities Social Security Task Force; Daniel Bertoni, 
Director, Education Workforce and Income Security, Government 
Accountability Office; Jill Houghton, Executive Director, U.S. 
Business Leadership Network; Nadine Vogel, Founder and 
President, Springboard Consulting, Mendham, New Jersey, on 
behalf of the Society for Human Resource Management. Welcome to 
all of you and thanks for being here.
    Dr. Burkhauser, you are recognized. Please go ahead.

  STATEMENT OF RICHARD BURKHAUSER, PH.D., PROFESSOR, CORNELL 
  UNIVERSITY, ITHACA, NEW YORK, AND ADJUNCT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. BURKHAUSER. Thank you for the opportunity to outline 
the main Social Security Disability Insurance policy reforms 
contained in my book with Mary Daly.
    The DI program is growing at an unsustainable pace. Unless 
policy reforms are enacted, the Social Security trustees 
predict DI will be insolvent by 2016. Based on our reading of 
the evidence the dramatic growth in beneficiaries captured in 
Figure 1 is not primarily the result of factors outside the 
control of policymakers. Rather, it is the consequence of 
changing eligibility standards and their interpretation by DI 
gatekeepers, changes that have increasingly turned DI into a 
long-term unemployment program, rather than a last resort 
income safety net for those unable to work that its founders 
envisioned.
    As can be seen in Figure 1, between 1990 and 2009 Americans 
on the disability rolls more than doubled from 40 to 82 per 
thousand workers. This troubling statistic is now well-known. 
What is less known is how over this period the Netherlands, 
once called the sick country of Europe for its runaway 
disability system, initiated fundamental reforms that reduced 
their disability rolls from 110 to 80 per thousand workers, a 
ratio that is now below the United States' rate. The Dutch 
reforms focused on reducing the inflow of beneficiaries by 
making employers more directly bear program costs. All Dutch 
firms must now fund the first 2 years of their worker's 
disability benefits and pay an experience rated disability tax 
based on the number of their workers who move on to the long-
term program. These reforms provide incentives for employers 
who are in the best position to offer accommodation and 
rehabilitation to do so. Most importantly, these reforms led to 
the development of a market for private long-term disability 
insurance, and more effective case management of impaired 
workers by private sector case managers. It is this early 
intervention that is credited with the significant decline in 
beneficiaries shown in Figure 1. Importantly, the reduction of 
new beneficiaries was the result of those with disabilities 
working rather than moving on to other welfare programs.
    Currently about one-third of U.S. workers are covered by 
private long-term disability insurance. The question is, how do 
we get the private sector more involved in case management? 
Rather than mandate that all firms provide such coverage we 
proposed an alternative to better align the public and private 
costs of long-term disability.
    The United States should stop funding the DI system with a 
uniform payroll tax and replace it with a tax based on a firm's 
experience rating. Doing so would raise the payroll tax of 
firms whose workers enrolled at below-average rates and lower 
it for firms whose workers enroll at low-average rates. 
Employers who bore the cost of both options would be more 
incentivized to make investments that clear a work path for 
their employees following the onset of a disability than to 
push them onto the DI rolls.
    This is currently the system used to fund State Worker's 
Compensation benefits. The best practice for these programs 
could also be considered for DI changes. Alternatively, 
employers who provide private disability insurance could be 
granted a reduction in DI tax rates, while firms that could not 
be charged higher tax rates either--could be charged higher tax 
rates. Either of these reforms would bend the projected cost 
curve by reducing incentives for employers and employees who 
overuse the system.
    Current DI policy built on the assumption that disability 
and employment are mutually exclusive is both archaic and 
fiscally unsustainable. Fundamental reform is needed to restore 
DI solvency and to support continued employment and greater 
self-sufficiency among workers with disabilities. Experience 
rating is the key to doing so. It would bring private sector 
know-how in case management to the front end for a more fully 
integrated disability system.
    This is not pie in the sky reform. This is reform that the 
Dutch have already implemented. It is reform that is going on 
in Sweden, and it is reform that is going on in Great Britain. 
If you look at Figure 1, you can't possibly believe that 
changes in the health of the Dutch and the United States are 
actually responsible for the dramatic changes in the number of 
people on their disability rolls. The Dutch in the 1980s proved 
that you could put as many people on the disability rolls as 
you are willing to accept by very open rules that allowed 
people to come on who had only 15 percent impairments. We are 
now having a higher rate than they are in our disability 
system, and we can do better.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Burkhauser follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.001
    
    [GRAPHIC] [TIFF OMITTED] 80315A.002
    
    [GRAPHIC] [TIFF OMITTED] 80315A.003
    
    [GRAPHIC] [TIFF OMITTED] 80315A.004
    
    [GRAPHIC] [TIFF OMITTED] 80315A.005
    
    [GRAPHIC] [TIFF OMITTED] 80315A.006
    
    [GRAPHIC] [TIFF OMITTED] 80315A.007
    
    [GRAPHIC] [TIFF OMITTED] 80315A.008
    
    [GRAPHIC] [TIFF OMITTED] 80315A.009
    
    [GRAPHIC] [TIFF OMITTED] 80315A.010
    
    [GRAPHIC] [TIFF OMITTED] 80315A.011
    

                                 <F-dash>

    Chairman JOHNSON. Dr. Stapleton, you are recognized for 5 
minutes. Thank you.

 STATEMENT OF DAVID C. STAPLETON, PH.D., DIRECTOR, CENTER FOR 
    STUDYING DISABILITY POLICY, MATHEMATICA POLICY RESEARCH

    Mr. STAPLETON. Thank you for the opportunity to testify 
today. I will briefly state and explain my views which have 
been formed over 20 years of conducting research on disability 
and employment issues. More support for my views can be found 
in my written testimony.
    SSDI is just one component of our Nation's disability 
support system, albeit a key one. Like many others I think the 
overall system is failing. There is no easy fix, but there are 
prospects for systemic reforms that would provide better 
opportunities for people with disabilities to live fulfilling 
lives, and at the same time reduce growth in Federal and State 
expenditures for their support. Congressional action, however, 
is required to jump start a process that over time could lead 
to successful restructuring.
    Now, I characterized the disability system as failing 
because it is well documented that economically working age 
people with disabilities are falling further and further behind 
their peers without disabilities even though taxpayers are 
paying more and more for their support. For over two decades 
relative employment rate and household income of working-age 
people with disabilities has been declining and Federal 
expenditures to support that population are very high and are 
growing much more rapidly than we would expect based on growth 
and the size of the workforce and the changes in its age and 
sex composition. In short, taxpayers are being asked to pay 
more and more for a support system that is less and less 
adequate.
    I see two fundamental causes of systemic failure: The first 
is the use of long-term inability to work because of a 
medically determinable condition as an eligibility criterion 
for SSDI and SSI. This criterion might have made sense in 1956, 
SSDI's first year, but in today's world many people with severe 
medically determinable impairments can, in fact, substantially 
support themselves through work. My guess is that you all know 
people with such significant impairments that they would be 
eligible for SSDI if they did not actually work. And I suspect 
there are some in this room. They likely have high levels of 
education. They have received excellent health care, they use 
technology and accommodations to greatly mitigate their 
functional limitations, and they have developed strong personal 
support networks, factors that SSA does not, of course, 
routinely consider in its disability determinations.
    The inability to work criterion creates work disincentives 
for all those with qualifying medical conditions or conditions 
that nearly qualify, and fosters long-term dependence on public 
support.
    The second fundamental flaw with the current policy is 
program fragmentation, as has been amply documented by Dan 
Bertoni and his colleagues at the GAO. The patchwork of Federal 
and State disability support programs creates pervasive 
inefficiencies. Among these, and there are many, are multiple 
financial incentives for States and others to encourage and 
help people with disabilities apply for SSDI rather than to 
support work.
    Structural reforms that address these two issues could 
potentially provide better economic opportunities for people 
with disabilities and reduce growth in Federal and State 
expenditures for their support. Such win/win policy reforms 
would be oriented towards helping people with disabilities take 
advantage, take better advantage of their productive potential 
rather than undermine their efforts to do so. They would also 
integrate or better coordinate programs, all in a manner that 
improves outcomes for people with disabilities and reduces 
total expenditures for their support.
    Now, that is very fine in theory, but what is the evidence? 
Is this all pie in the sky? In my written remarks, I summarize 
a growing body of evidence that such win/win reforms do exist. 
Given the evidence, it is not hard to imagine that structural 
reforms could reduce the percentage of people with disabilities 
who primarily rely on the government for their support by 20 to 
25 percent, perhaps more, improving their economic well-being 
at the same time. Unfortunately, however, it is far too risky 
to institute structural reforms on a timetable that would 
address the pending exhaustion of the SSDI Trust Fund based on 
what we now know. There is a high chance that the reforms would 
make people with disabilities significantly worse off, 
something that I know nobody wants to do, or they might 
accelerate growth in public expenditures for their support 
rather than reduce it, or they might do both.
    You know, Congress could pass legislation to put the 
country on a path towards successful restructuring. Structural 
change requires collaboration across agencies and across the 
corresponding congressional committees. I know that is 
difficult, but it is not unheard of. It has happened before. 
And it simply has to be done.
    States must also play a significant role. My written 
testimony outlines the elements of legislation that would help 
move that process forward.
    Today Congress faces very difficult choices with respect to 
SSDI and other programs that provide support to people with 
disabilities. The fundamental problems with the support system 
make it very likely that more difficult choices are in store 
for future Congresses if we don't quickly start down a path 
that could lead to win/win policy reforms. Hence, I urge you 
maybe to initiate a process of long-lasting fundamental reforms 
to American disability policies and programs.
    Thank you.
    Chairman JOHNSON. We just might do that. Thank you for your 
testimony.
    [The prepared statement of Mr. Stapleton follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.012
    
    [GRAPHIC] [TIFF OMITTED] 80315A.013
    
    [GRAPHIC] [TIFF OMITTED] 80315A.014
    
    [GRAPHIC] [TIFF OMITTED] 80315A.015
    
    [GRAPHIC] [TIFF OMITTED] 80315A.016
    
    [GRAPHIC] [TIFF OMITTED] 80315A.017
    
    [GRAPHIC] [TIFF OMITTED] 80315A.018
    
    [GRAPHIC] [TIFF OMITTED] 80315A.019
    
    [GRAPHIC] [TIFF OMITTED] 80315A.020
    
    [GRAPHIC] [TIFF OMITTED] 80315A.021
    
    [GRAPHIC] [TIFF OMITTED] 80315A.022
    

                                 <F-dash>

    Chairman JOHNSON. Ms. Ford, you are recognized.

STATEMENT OF MARTY FORD, DIRECTOR OF PUBLIC POLICY, THE ARC OF 
  THE UNITED STATES, ON BEHALF OF THE CONSORTIUM FOR CITIZENS 
          WITH DISABILITIES SOCIAL SECURITY TASK FORCE

    Ms. FORD. Thank you, Chairman Johnson, Ranking Member 
Becerra, and Members of the Subcommittee, for this opportunity 
to testify and for your attention to this very important 
disability program.
    SSDI is vital to people who are disabled during their 
working years and to their dependents. Earned benefits targeted 
to people with the most severe disabilities benefits are 
modest, averaging about $1,060 per month. For most people, SSDI 
benefits are at least 75 percent of their income. Along with 
related Medicare benefits, SSDI provides economic security and 
plays a vital role in helping people secure housing, food, 
health care, and other basic necessities.
    Beneficiaries are diverse. They can include a young person 
with severe visual or hearing impairment, or who has had a 
major head injury, or physical trauma, from an accident; a 
former daycare worker, teacher, accountant who has been 
diagnosed with advanced cancer or heart condition or MS; a 
former construction worker, machinist, salesperson, or nurse 
aide with a back injury and chronic debilitating pain or early 
onset of Alzheimer's; a custodian, illustrator, or stock clerk 
with bipolar disorder, schizophrenia, or intellectual 
disability.
    Many beneficiaries have had repeated attempts to work, 
often exacerbating their impairments before finally turning to 
the Social Security system. Most have a combination of adverse 
vocational characteristics such as age, low educational 
attainment, and declining health. Many beneficiaries are 
terminally ill; about one in five men, and one in seven women 
die within the first 5 years of receiving benefits. 
Furthermore, while recent technological advancements and 
stronger civil rights laws have helped many people with 
disabilities work, others face diminishing opportunities as the 
modern work environment actually becomes more demanding and 
less forgiving.
    Given the challenges facing people with disabilities, their 
loss of income and often extreme poverty, Social Security is a 
vital part of the solution for them, not the problem. That is 
why it is so important that any measures to strengthen SSDI be 
carefully developed, tested, and evaluated to understand the 
effects on current and future beneficiaries.
    The CCD Social Security Task Force has developed principles 
to help guide any reforms to the Social Security system, 
including SSDI. These are outlined in my testimony and we have 
numerous recommendations which I will highlight: Develop a 
better wage reporting and recording system, and promptly adjust 
wage--adjust benefit payments to reduce overpayments; increase 
the substantial gainful activity level to that of people who 
are blind; establish an earnings offset in the SSDI program; 
provide a continued attachment to SSDI and Medicare so long as 
the person remains disabled. This is an element of the Work 
Incentive Simplification Program, or WISP. Improve the rules 
for impairment-related work expensed; support and strengthen 
programs designed to allow flexibility for people who want to 
return to work, including programs authorized under the Ticket 
to Work Program. Improve opportunities for those who receive 
disabled adult child benefits; extend SSA's Title II 
demonstration authority; extend the WIPA and the PABSS 
programs; and provide SSA with adequate resources to carry out 
all necessary program functions.
    Finally, we must secure the long-term financial future of 
SSDI. As chief actuary, Steve Goss testified that major 
demographic shifts, including the aging of the baby boomers and 
entry of women into the workforce in the 1970s and 1980s, 
explain most of the recent DI program growth and that expansion 
has been expected for decades. Fortunately, these trends are 
also expected to stabilize over the next few years.
    To meet the DI trust fund shortfall in 2016, we urge 
Congress to act expeditiously, as has been done in the past, to 
reallocate payroll taxes between DI and the OASI programs. 
Congress has reallocated funds between the two trust funds six 
times, using a narrow definition of reallocation and 11 times 
using a broad definition. Reallocation is a sensible solution 
that will maintain the confidence of workers in SSDI.
    Americans value Social Security and are willing to pay for 
it. Reallocation allows time to carefully develop, consider, 
and evaluate options for assuring the long-term solvency of 
both the OASI and the DI trust funds for generations to come.
    Thank you for this opportunity to testify. I look forward 
to answering any questions.
    Chairman JOHNSON. Thank you, ma'am. I appreciate your 
testimony.
    [The prepared statement of Ms. Ford follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.023
    
    [GRAPHIC] [TIFF OMITTED] 80315A.024
    
    [GRAPHIC] [TIFF OMITTED] 80315A.025
    
    [GRAPHIC] [TIFF OMITTED] 80315A.026
    
    [GRAPHIC] [TIFF OMITTED] 80315A.027
    
    [GRAPHIC] [TIFF OMITTED] 80315A.028
    
    [GRAPHIC] [TIFF OMITTED] 80315A.029
    
    [GRAPHIC] [TIFF OMITTED] 80315A.030
    
    [GRAPHIC] [TIFF OMITTED] 80315A.031
    

                                 <F-dash>

    Chairman JOHNSON. Mr. Bertoni, welcome aboard. Please go 
ahead.

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
     AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. BERTONI. Good morning. Chairman Johnson, Ranking Member 
Becerra, Members of the Subcommittee. Good morning. I am 
pleased to discuss the future of Social Security disability 
programs, which paid nearly $180 billion to over 14 million 
individuals and their families last year. Given the size and 
cost of its programs, SSA must have current and appropriate 
criteria to assess whether a claimant's medical condition 
precludes work in a national economy.
    In 2003, we designated SSA's programs high risk in part 
because its programs did not reflect modern concepts of 
disability, where one's medical condition and work capacity is 
assessed in conjunction with advances in medicine, technology, 
and current job demands.
    My remarks today are based on our June 2012 report and 
focuses on steps SSA is taking to modernize its disability 
determination criteria, especially in regard to how claimant's 
functional capacity and other factors, such as assistive 
devices and workplace accommodations are considered.
    In summary, SSA has taken concrete steps to incorporate 
modern concepts into its disability criteria. First, in several 
areas the agency is now giving greater consideration to 
claimants' functional capacity despite their medical condition 
to determine whether their impairment prevents work. For 
example, as part of SSA's revision to its medical listings for 
the immune system the agency included several functional 
criteria, such as performing activities of daily living, 
maintaining social functioning and completing tasks in a timely 
manner.
    In general, the SSA officials and experts we spoke with 
supported incorporating a functional criteria as appropriate to 
facilitate a more accurate assessment of work disability. 
However, some caution that such an approach could result in 
more subjective assessments and pose challenges for decisional 
consistency.
    Despite these concerns, to better inform its efforts and 
incorporate functional information into it processes SSA is 
sponsoring research through the National Institutes of Health. 
Of note is an ongoing effort to develop a computer-based tool 
to more rapidly and reliably assess claimant function. Agency 
officials anticipate several benefits from this assessment 
tool, such as providing more timely, accurate, and consistent 
information on the impact of impairments and one's ability to 
work. However, the agency has yet to determine when or how this 
tool will be integrated into its disability determination 
processes.
    Although these and other actions are promising, SSA has not 
fully incorporated other modern concepts into its disability 
criteria, such as the role of assistive devices and 
accommodations in mitigating barriers to work. In today's work 
environment, assistive devices can help the visually impaired 
perform various tasks and accommodations such as increased 
wheelchair accessibility can enhance an individual's ability to 
function in the workplace.
    SSA does incorporate assistive devices such as prosthetics 
for walking into the medical listings once they become standard 
in the medical community, and examiner staff must evaluate a 
person's ability to function with the devices in place. 
However, agency officials and other experts expressed concerned 
about more broadly incorporating such devices when they may not 
be widely available.
    In regard to workplace accommodations, the agency's policy 
is not to consider them due to the inability to ensure they are 
actually being provided by employers or that they are 
effective.
    Officials were also concerned about the resources required 
to do such assessments, and that data on availability and use 
of accommodations was lacking. Although giving broader 
consideration to assistive devices and workplace accommodations 
is difficult, SSA may be missing opportunities to move further 
in this direction, especially for some populations such as 
young adults. Indeed, some have argued that there are common, 
inexpensive workplace supports to address work disability that 
can be reasonably incorporated into SSA's disability criteria. 
And there may be opportunities for the agency to obtain this 
information directly from employers as it moves forward in 
developing its new occupational information system. SSA could 
also collect such information through its disability research 
consortium which will serve as a national resource for 
fostering studies on disability policy.
    We recommended that SSA conduct limited, focused studies on 
the feasibility of more fully incorporating certain assistive 
devices and accommodations into its disability determinations. 
Absent studies to ascertain how these tools are playing a role 
in helping individuals with disability stay at work or return 
to work and their cost in comparison to many years of 
disability benefits, SSA may be missing an opportunity to help 
individuals reengage in the workforce and to best target finite 
program resources.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you may have. Thank you.
    Chairman JOHNSON. Thank you, Mr. Bertoni.
    [The prepared statement of Mr. Bertoni follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.032
    
    [GRAPHIC] [TIFF OMITTED] 80315A.033
    
    [GRAPHIC] [TIFF OMITTED] 80315A.034
    
    [GRAPHIC] [TIFF OMITTED] 80315A.035
    
    [GRAPHIC] [TIFF OMITTED] 80315A.036
    
    [GRAPHIC] [TIFF OMITTED] 80315A.037
    
    [GRAPHIC] [TIFF OMITTED] 80315A.038
    
    [GRAPHIC] [TIFF OMITTED] 80315A.039
    
    [GRAPHIC] [TIFF OMITTED] 80315A.040
    

                                 <F-dash>

    Chairman JOHNSON. Ms. Houghton, welcome. Please go ahead.

 STATEMENT OF JILL HOUGHTON, EXECUTIVE DIRECTOR, U.S. BUSINESS 
                       LEADERSHIP NETWORK

    Ms. HOUGHTON. Chairman Johnson, Ranking Member Becerra, and 
Members of the Committee, thank you for the opportunity to be 
here today. My name is Jill Houghton. I am the Executive 
Director of the U.S. Business Leadership Network. We are a 
business network. We are nonprofit. We are nonpartisan, and we 
promote disability inclusion in the workplace, in the 
marketplace, and in the supply chain. Additionally, we run the 
Nation's only certification for disability-owned businesses, 
and we are working with corporate America to do business with 
people with disabilities who are entrepreneurs.
    As Executive Director of the USBLN, I am here because our 
businesses, our members are deeply, deeply committed to 
recruiting, hiring, and retaining employees with disabilities. 
I should also share with you that my testimony is grounded in 
my personal experience. I ran the Ticket To Work and Work 
Incentives Advisory Panel from 2005 until 2008, when we sunset. 
I am also married to somebody with a spinal cord injury, who is 
on the Social Security Disability Insurance Program and 
successfully transitioned off the rolls.
    While our members are not experts on the Social Security 
program, one of the things that they firmly believe in is that 
we as a Nation have to move from focusing on disability from a 
medical perspective to focusing on a social perspective, 
focusing on talent. When we go to our members and we ask them 
if they are interested in hiring people with disabilities, 
unequivocally the answer is yes, but they don't hire people 
with disabilities because they can't work, they hire people 
with disabilities because they have the prerequisite skills and 
the needed supports in order to come in and get the job done.
    When we went to our members and we asked them about their 
challenges and their opportunities related to this issue, I 
will tell you that one of the number one issues, once they get 
over and they figure out that this is what they want to do, the 
question becomes where are--where is the supply? We represent 
the demand side of the equation and where is the supply? How do 
I find people with disabilities? And specifically, how do I 
find college students with disabilities?
    So we created a National Student Advisory Council and we 
became really personally connected to this because one of our 
student leaders, Jimmy Curran, graduated from Temple University 
with a degree in finance. This kid is ready to set the world on 
fire. This is who my members are looking for. And Jimmy got a 
job as a market research analyst in Pennsylvania with a Blue 
Cross affiliate, and he called me up and he said, hey, I am 
going to work but he needed personal care assistant services. 
So his private insurance wasn't going to pay for that. So he 
didn't know about 1619(b) and all of the complicated work 
incentives and we helped him get connected, and so the good 
news is, Jimmy is working, and that is the good news. The bad 
news is that unless he gets bumped up to a really high level 
within the company he is going to have to stay at this certain 
level and limit his earnings because he needs the personal care 
assistant services. And in a short amount of time he is going 
to become dually eligible. Now, from businesses' perspective we 
have invested in Jimmy. We want Jimmy. We want to help Jimmy 
grow within the company, but it is going to be a challenge and 
he is going to have to come to making some tough decisions. So 
that is definitely a challenge that we face.
    Other challenges that we face, is there is a myriad of 
government programs out there and nobody knows how to navigate, 
right? I mean, people knock on businesses' door from, you know, 
every nook and cranny talking about what people can't do. We 
don't want to know what people can't do. We want to know what 
people can do.
    Certainly, there are challenges that our members hear 
about. They hear about employees that have issues with 
overpayments, that have issues with program eligibility, et 
cetera. The list goes on.
    So where are we succeeding? I will tell you where we are 
succeeding. We are succeeding because business--companies like 
Walgreens are standing up and making a corporate commitment to 
recruit, to hire, to retain people with disabilities, and they 
are teaching their peers. Countless companies, Lowe's, Pepsi, 
Hershey, Merck. The list goes on and on and on of companies 
that are learning from each other that are committed to this. 
But it is not easy.
    I would tell you that, in conclusion, hiring people with 
disabilities gives business a competitive advantage. It is an 
advantage that business needs. We represent the demand side of 
the equation. We need the talents, the dedication, and the 
creativity of people with disabilities in the workforce, but 
equally important is we need policies and programs and 
investments that support this paradigm shift from a medical 
model to one that focuses on talent.
    Thank you.
    Chairman JOHNSON. Thank you, ma'am. I have visited 
Walgreens where they work those people, and there must have 
been 10 of them in there stocking shelves. It is neat to see 
people who are in that situation accomplishing something with 
their lives. It really is.
    [The prepared statement of Ms. Houghton follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.041
    
    [GRAPHIC] [TIFF OMITTED] 80315A.042
    
    [GRAPHIC] [TIFF OMITTED] 80315A.043
    
    [GRAPHIC] [TIFF OMITTED] 80315A.044
    
    [GRAPHIC] [TIFF OMITTED] 80315A.045
    
    [GRAPHIC] [TIFF OMITTED] 80315A.046
    
    [GRAPHIC] [TIFF OMITTED] 80315A.047
    
    [GRAPHIC] [TIFF OMITTED] 80315A.048
    
    [GRAPHIC] [TIFF OMITTED] 80315A.049
    

                                 <F-dash>

    Chairman JOHNSON. Ms. Vogel, welcome. Please proceed.

 STATEMENT OF NADINE VOGEL, FOUNDER AND PRESIDENT, SPRINGBOARD 
 CONSULTING, MENDHAM, NEW JERSEY, ON BEHALF OF THE SOCIETY FOR 
                   HUMAN RESOURCE MANAGEMENT

    Ms. VOGEL. Thank you. Good morning, Chairman Johnson, 
Ranking Member Becerra, and distinguished Members of the 
Subcommittee. My name is Nadine Vogel and I appear before you 
today as a member of Society for Human Resource Management. 
SHRM's members have a long history of promoting effective 
employment practices that advance equal opportunity for all 
people, including individuals with disabilities. I commend you 
for holding this hearing on the Disability Insurance Program 
and thank you for the opportunity to testify.
    Mr. Chairman, I am the Founder and President of Springboard 
Consulting in Mendham, New Jersey. At Springboard it is my 
professional goal to collaborate with organizations that 
encourage the hiring and retention of individuals with 
disabilities. On a personal level, my husband and I are both 
parents of two children who have special needs. I understand 
firsthand the issues that individuals that have disabilities 
and their families face, but I also understand the challenges 
that employers face in today's economy.
    Every day in this country employer disability management 
strategies are helping employees stay on the job and off our 
strained Disability Insurance Program. Employers and HR 
professionals continue, however, to confront persistent gaps 
between the skills of unemployed workers and the skills sought 
by employers to fill specific positions.
    Recent SHRM research reveals that more than one-half of 
employers report difficulty recruiting for specific jobs today. 
Individuals with disabilities can fill these gaps. The 
challenge for employers is to develop an approach that recruits 
and retains these talented employees while successfully 
navigating Federal law and programs.
    In my experience both employers and employees want 
individuals with disabilities to remain at work or return to 
work as quickly as possible. The GAO has shown that the longer 
employees are out of work, the less likely they are to ever 
return. But there are many challenges for employers. While 
numerous Federal statutes and programs attempt to provide a 
transition from disability to work for these individuals, taken 
as a whole, they are very complicated to navigate.
    First, the Social Security Disability Insurance Program has 
great merits, but it was not originally created to handle all 
of the age-related disabilities that come as a result of people 
living longer and staying in the workplace longer. In addition, 
the definition of disability for eligibility for SSDI is 
outdated. It reflects the medical model rather than a 
functional model. Contrary to SSDI definition, other Federal 
statutes use a different definition. At SHRM we prefer the 
Americans with Disabilities Act, or ADA, definition. It relies 
on the essential functions of the job, what someone can do 
rather than a more general job description or perhaps what they 
can't do.
    Then our members report mixed experiences in utilizing the 
Work Opportunity Tax Credit and VOW to Hire Heroes Act Tax 
Credit as well as vocational rehabilitation protection and 
advocacy for beneficiaries of Social Security and the Ticket To 
Work programs. Because of the complexity and the paperwork 
required to take advantage of these tax credits and programs, 
they are more geared towards benefiting large employers with HR 
departments, and even then can be extremely overwhelming. 
Despite the economic and statutory hurdles, employers have 
found many strategies successful in keeping employees with 
disabilities at work.
    First, when employers engage an employee early on in the 
return to work process it allows the organization to 
simultaneously meet business needs and reduce the financial 
impact of a prolonged absence to the employee and their family.
    Second, employers clearly define policies and jobs. 
Employers must ensure that the transition back to work programs 
have specific written guidelines, light duty, and regular duty 
job descriptions.
    Third, reasonable accommodations committees, or RACs, are 
becoming a very effective practice towards ensuring the fair 
and equitable end-to-end process of someone requesting an 
accommodation.
    And fourth, employers are providing creative accommodations 
and other simple solutions for these employees such as a 
keyboard tray to reduce carpal tunnel syndrome. Such 
accommodations can include workplace flexibility benefits such 
as defined flexible work schedules and even telecommuting.
    In closing, Mr. Chairman, I want to be clear that while 
some of these suggestions for disability management tactics may 
work for different employers, you know, you have to keep in 
mind that the suggestions here are circumstantial. So there is 
not one simple one-size-fits-all solution for every employer of 
every size or, for that matter, in every industry.
    Mr. Chairman, again, I thank you, I thank you the 
subcommittee for listening to my perspective, and I am happy to 
answer any questions.
    Chairman JOHNSON. Thank you, ma'am.
    [The prepared statement of Ms. Vogel follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.050
    
    [GRAPHIC] [TIFF OMITTED] 80315A.051
    
    [GRAPHIC] [TIFF OMITTED] 80315A.052
    
    [GRAPHIC] [TIFF OMITTED] 80315A.053
    
    [GRAPHIC] [TIFF OMITTED] 80315A.054
    
    [GRAPHIC] [TIFF OMITTED] 80315A.055
    
    [GRAPHIC] [TIFF OMITTED] 80315A.056
    
    [GRAPHIC] [TIFF OMITTED] 80315A.057
    
    [GRAPHIC] [TIFF OMITTED] 80315A.058
    
    [GRAPHIC] [TIFF OMITTED] 80315A.059
    
    [GRAPHIC] [TIFF OMITTED] 80315A.060
    
    [GRAPHIC] [TIFF OMITTED] 80315A.061
    
    [GRAPHIC] [TIFF OMITTED] 80315A.062
    
    [GRAPHIC] [TIFF OMITTED] 80315A.063
    
    [GRAPHIC] [TIFF OMITTED] 80315A.064
    
    [GRAPHIC] [TIFF OMITTED] 80315A.065
    

                                 <F-dash>

    Chairman JOHNSON. You know, I have always thought the 
United States was a leader, but some of the testimony we have 
heard makes me feel like we are not doing enough. And I guess 
the question is, how does a program need to change to catch up 
with the world views on disability today?
    Dr. Stapleton, you say the fact that the Disability 
Insurance Trust Fund will be exhausted in 2016 and the erosion 
of the economic status of people with disabilities are signs of 
a failing public support system for working-age people with 
disabilities, despite the increasing Federal tax dollars that 
go into it, and you also say that the system is failing the 
taxpayers who pay for it, could you explain why you call it 
that, and tell me why they exist, if you can?
    Mr. STAPLETON. Sure, I would be happy to do that. This 
really goes back, I think, to things that you said in your 
opening comments. In 1956, when we established SSDI, it was 
intended to be a medical retirement program for people who were 
over the--it is on. Is that better now?
    Chairman JOHNSON. Yes.
    Mr. STAPLETON. Okay. Sorry.
    Chairman JOHNSON. I could hear you. We will get the cotton 
out of his ears.
    Mr. BECERRA. He needs an assistive device.
    Mr. STARK. You have new batteries.
    Mr. STAPLETON. I am not sure he qualifies.
    Mr. BECERRA. I can guarantee you he doesn't.
    Mr. STAPLETON. So it was established as a medical 
retirement program for workers over the age of 50. And you 
know, at that time, it was probably pretty reasonable to 
determine whether somebody could continue to work based on 
their medical conditions. A lot has changed since then, and 
some of those changes are external to the program, advances in 
medicine and technology and the way that we work that are just 
mind-boggling from the perspective of 1956. And that, to my 
mind, has really made SSA's task of trying to divide people 
into people who can work and people who can't work based on 
medical conditions alone, a fool's errand. You know, it is just 
if you want to know why that process doesn't work very well, 
that is the core reason.
    Chairman JOHNSON. Well, dividing it is one thing but some 
of them tried to play the system, too. You know that.
    Mr. STAPLETON. Well, that may well be true. So at the same 
time those trends were occurring, you know, we expanded the 
availability of disability benefits, and the American people 
are very generous. They want to help people with disabilities. 
And the way that we did it, though, was to really expand on 
what we did with SSDI. So first we made it easier for young 
people to get SSDI benefits either by working a little bit or 
by becoming eligible as dependents of their parents and the 
same for disabled widows. And we also, you know, we eventually 
added Medicare benefits to the mix, made the benefits more 
valuable.
    The SSI program started in 1974. We used the same 
criterion, and again, expanded benefits, made Medicaid 
available to those who were on SSI in most States, for almost 
all people.
    So my colleagues and I in the past have called what we have 
created a poverty trap. And what we do is when people with 
significant medical conditions do have challenges, they face 
difficult challenges in their lives, so we have set up a system 
which serves to funnel them into dependence on Federal programs 
as opposed to helping them take advantage of the productive 
capacity that they actually have.
    And so I think, you know, the root of the problem goes back 
to just following along and expanding on what we did in 1956 
without taking a good look at the structure and thinking about 
how to change it. And as time has passed various things have 
happened that have affected the ability of some people with 
significant impairments to work. We have had a more competitive 
economy. We have had many recessions and as you know, every 
time we have a recession, a new batch of people comes on to 
SSDI. And once they get on, almost all of them stay there for 
the rest of their lives or until they are earning retirement 
benefits. So we just keep following people into the programs 
more and more, and we end up having to spend more and more for 
them.
    So I think, you know, I think in short, we are getting less 
for our money, and not really helping people with disabilities 
the way that we could help them with the same amount of money 
or even less.
    Chairman JOHNSON. Dr. Burkhauser, could you tell me what 
you think the primary policy goal of the national disability 
insurance ought to be and what should the taxpayers be paying 
for with their taxpayer dollars?
    Mr. BURKHAUSER. Well, I think the taxpayer should be paying 
for what was originally envisioned by the founders. The DI 
program should be a last resort income safety net for those 
unable to work.
    Now, in Europe, the way that works is that the government 
integrates government jobs programs with government transfer 
programs and they have gatekeepers that try work programs 
first. That is not the way we do business in the United States. 
We have much more faith in the private sector. But we have a DI 
program which basically hands out checks. And we have this very 
weird system. Think about this. You have to spend 2 years 
demonstrating that you can't possibly work at any substantial 
gainful activity before someone in the government tries to help 
you to work. That doesn't work. That is crazy. You don't 
provide help for work after someone has proven they can't work 
for 2 years. You need that to happen beforehand. The people who 
do that are the private-sector employers but they are getting 
the wrong signals because of the way we tax them to provide 
less training and accommodation than they can do.
    The Dutch had the same problem and what they did was to 
experience rate payroll taxes and require firms to provide the 
first 2 years of benefits. That got the attention of the 
private sector. It is nice to say that the private sector takes 
care of a few people. That is good, but it is amazing the 
private sector how they respond to incentives. If you tell them 
you have got to pay for it if they go onto the long-term 
disability rolls, all of a sudden they will be taking care of a 
lot more people. Only 33 percent of employers now have long-
term disability programs. I am not saying that we should 
mandate that. That is what some very good economists Autor and 
Duggan out of the Hamilton Group urged. I am suggesting let's 
just change the price signals so that people have to pay. When 
their workers go onto the disability rolls they have to pay 
more if more of their workers go on relative to firms that are 
doing the right thing and providing accommodation for them.
    Chairman JOHNSON. Thank you, sir.
    Mr. Becerra, you are recognized for 5 minutes.
    Mr. BECERRA. Thank you, Mr. Chairman. Thank you all for 
your testimony and food for thought. I thank you very much. Is 
it Houghton?
    Ms. HOUGHTON. Houghton.
    Mr. BECERRA. Ms. Houghton, I liked your testimony because 
more than anything else I think you show that there is a lot of 
energy and enthusiasm to try to make a difference. And I think 
that goes a long way. Much of this is believing in some of 
these folks that they can go back to work and helping inspire 
them to have the confidence to go back to work, and so I hope 
that you stay in touch with us as we try to figure out how to 
improve the DI system. Anything that you think will work, you 
know, the best ideas that can come from the business community, 
our business leaders who are trying, making the effort to try 
to get folks into the workforce, the collaborative efforts that 
can take place between the business community and the Federal 
Government, please share that. And Ms. Vogel, you as well, also 
expressed some of that. I hope that what you will do is push 
us, push the envelope because what we do have to do is figure 
out a way to partner on this.
    We are entering the stage where that baby boom generation 
is hitting that point where they are most prone to be disabled. 
And that is why I think the chart, Dr. Burkhauser, that you 
used was a bit deceptive. We have twice as many women in the 
workforce today than we had back in 1975 when you start to show 
an increase in the size of the disability workforce. We have 
all of those baby boomers who in 1975 were babies, young kids, 
who are now at that point where they are either retiring or not 
able to work because they may have become disabled. And so I 
think we have to look closely because I don't think anyone here 
would say that the folks that are receiving disability benefits 
don't have a disability. It is whether they have a disability 
that would keep them from working, and what we have to try to 
do is help those who should be able to work, who with a little 
bit of incentive, with a little bit of confidence, people who 
say, I trust that you can get back to work, I am going to show 
you that I am committed to you as your employer to help you get 
back to work, can probably inspire some of these folks who are 
probably a little depressed on occasion when they can't get to 
work to say, you know what, you believe in me, I am going to 
believe in me again. And I think that is where we crack this 
nut which has led to this concern for the Disability Insurance 
Program. But I hope no one would make the claim that it is time 
to get rid of the Disability Insurance Program because for the 
most part, we need some help for some of these folks.
    So, Ms. Houghton, I wanted to just make sure I am clear, 
because you pointed out the case of a young man who has got 
some real opportunities, but most of the folks who apply for 
disability insurance benefits don't even have a high school 
diploma. Right, my understanding is--statistics I am looking at 
her--is two-thirds of DI beneficiaries have only a high school 
diploma or less. So they are not as fortunate. They haven't 
been to the point where they have that college degree.
    Nearly 70 percent of disability beneficiaries are 50 years 
or older, so they are not at the very beginning of their work 
career. These are folks who are in the sunset of their work 
career and, as we know, even Americans who are not disabled who 
are over 50 are having a hard time today getting a job because 
the market is very tough. And so I think we have to remember 
that this is a population that has a disability severe enough 
that in many cases, as I think Miss Ford mentioned, many of 
them die within a few years of applying for the benefit. These 
are not folks who would just need to have a computer, you know, 
typing tray so they can avoid carpal tunnel syndrome. These are 
folks who in a few years may not even be on this Earth. And so 
what we are trying to do is pick out the ones that while they 
have a severe disability we think with a little bit of 
accommodation, and I think Mr. Bertoni, your testimony was 
essential here because you pointed out how modern science, 
technology has made things possible today that 30 years ago we 
couldn't have done. And the only proof you need to see is our 
wounded warriors who are coming back and doing remarkable 
things having been maimed and injured in so many different and 
grievous ways.
    Mr. Bertoni, let me make sure. GAO we rely on to give us 
the scoop on this stuff, the facts. We are talking about folks 
who are disabled, right. There is no question these are folks 
who are disabled in some capacity.
    Mr. BERTONI. Correct, for the most part. Obviously, there 
are folks who get in under certain means that aren't, but that 
is on the margins.
    Mr. BECERRA. And so it is now an issue of how do we make 
the Social Security Administration, working with this 
Disability Insurance Program, be as effective as possible 
partnering with the business community to try to make sure that 
we can transition those who still have the capacity to work to 
get them back to a job. Part of it is the training and 
education that might be necessary to get some of these folks 
who are disabled, a spinal problem, but yet still able to do a 
number of things, back into the workforce. So part of this will 
involve more than just Social Security. It is going to involve 
the workforce training aspect of what government working with 
the private sector can do. And so I hope what you will do is 
continue to give us information about how there are 
opportunities where we can partner with the business sector to 
make sure that technology and training will get some of these 
folks back to work.
    Mr. BERTONI. Sure, this must be a partnership. It is not 
all about the Social Security Administration. There are many 
entities in government, State and local, that can help in this 
effort, as well as the business community. What I just heard is 
that the focus on capacity versus incapacity, and a cultural 
shift that return to work and stay at work is not only 
socially, but economically beneficial to individuals as well as 
employers. That is something that we need to sort of move 
further in that direction.
    Mr. BECERRA. Thank you, Mr. Chairman. I yield back.
    Chairman JOHNSON. Thank you. Mr. Berg, you are recognized 
for 5 minutes.
    Mr. BERG. Thank you, Mr. Chairman. I thank the panelists 
for being here. I mean, obviously, I look at this chart and, 
you know, we need to look at how we do things different. You 
know, if you say 1956 was when the system was set up, that was 
56 years ago. I mean, clearly things have changed dramatically. 
In our own State we looked through WSI, or Worker's 
Compensation, and we actually found one of the huge successes 
is when there was an injury empowering the employer to identify 
it immediately, getting proper care, and then keeping that 
person in that workforce. I mean, here is their peers, their 
friends, and rather than going home or some other environment 
for 30, 60, 90 days or 6 months, we found that when you are in 
that other environment you got used to that and that was your 
normal. And so the idea is to keep them in that workplace.
    And so I guess I have a couple of questions, and it is kind 
of two different groups here. There is a group that of course 
is not in the workforce and has disabilities, and we need to, 
you know, really need to look at those, but I am thinking about 
the ones that are in the workforce and, you know, if you could, 
Dr. Burkhauser, just kind of talk and you did touch on that, 
the incentives. My question is, how do we go from here to there 
without creating an environment where employers are going to 
say, you know what, I don't want to have to pay an extra tax or 
penalty here, so I am not going to hire someone with a 
potential disability. So maybe just talk briefly about that 
transition, and then I would like to talk about other 
incentives for people that are new to the workforce with 
disabilities and how we can create some incentives there.
    Mr. BURKHAUSER. So if you go to an experience rating 
system, which is in fact what you talked about with Worker's 
Compensation, you are really encouraging the kinds of things 
you would like to see. You would like to see a safer workplace. 
You would like to see employers that are more likely to provide 
accommodation or rehabilitation. In my work we have shown, for 
instance, that workers who experience the onset of disability 
on the job are more likely to get an accommodation than workers 
who experience an accommodation off the job. Why is that, 
because Worker's Compensation has an experience rating system. 
The DI system doesn't. So that is the important point.
    But you are absolutely right that this will make employers 
more cognizant of the risks of employing someone with a 
disability, and if they perceive that if you already have a 
disability you are more likely to move on to the disability 
rolls there could be a problem there. So what you can do is you 
can simply either give employers a tax credit for hiring such 
workers or not have those workers in your pool so that it is 
not included and use those for general revenues.
    So there is a way to get around that problem and I 
certainly agree it is an issue and we should worry about it. 
But I think the important point here is that, I am not talking 
about pie in the sky when I am talking about getting the 
disability rolls changed.
    In 1981, only 33 percent of people who said they had a work 
limitation in the data that the current population survey were 
on the DI rolls; 33 percent. Today, there is no real change in 
the underlying conditions of these folks, but 52 percent are on 
the DI rolls. And it is not the case that this chart is 
deceptive, because actually, Autor and Duggan, who are at MIT 
and Princeton, have done work looking--and showed that the 
three points that were made about demographics only account for 
about 25 percent of the rise in DI; 75 percent is due to the 
programs changes both in the rules and in their interpretation. 
That is not me. That is the Brookings Institution folks who are 
saying exactly the same thing.
    Mr. BERG. Ms. Houghton, thanks for your enthusiasm and 
passion, but also how can we inspire, promote employers to seek 
out workers and incorporate them? Is there some specific thing 
in addition to what you have already outlined?
    Ms. HOUGHTON. The best thing that we know, the best thing 
that we are finding is that business learns from each other. I 
mean, I think if we look at the tax credits that exist that are 
already in existence, business isn't taking advantage of them 
because it is too much government red tape. And so in large 
part, they are going unutilized. So it is definitely something 
that we need to look at. Can we tell you specifically what it 
needs to be?
    Mr. BERG. Thank you all. I yield back, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Mr. Stark, do you care to make comments.
    Mr. STARK. Thank you, Mr. Chairman. I thank the panel for 
their interesting observations. I would first of all like to 
try to make it the protocol in this committee--I am not 
succeeding too well--that we strike from our lexicon the word 
``disability.'' There are very few people in this world who are 
breathing and among the quick who are disabled. Many of them 
have disadvantages, and I like that so much better. I have a 
son with a disadvantage, and he can explain it to you. And he 
can explain what he has to do to compensate for it, but under 
no circumstances would he be considered disabled. And I think 
that is true for almost all except those people who are really 
just in a vegetative state and unable to speak or function for 
themselves. And that isn't many. I think if we look at the 
disadvantages that they can be overcome, and that, as many of 
you have suggested, employers will find work for them. I think 
Dr. Stapleton mentioned that with the increase in technology we 
are not talking about as many people having to work with their 
backs and their hands, which often is a case where a 
disadvantage can end it, but where people can work with their 
minds, some people who are mute, some people with sight 
disadvantages, some people with--all can be put to work using 
other skills in this day and age.
    We have job shortages, and one of the things that we hope 
is that the economy coming back will encourage this. But where 
we come from in California with the tremendous growth there of 
technical work, I worked for many years with Steve Jobs and 
worked on computer programs that Apple did that actually could 
help people with autism function in a community. We were just 
beginning when Steve died to deal with dyslexia, and finding 
ways for people there, many of whom we find now we have a 
Dyslexia Caucus, Members of Congress who are dyslexic, and 
didn't know it may be until they got out of college, or have 
children, but we have learned to deal with that. And my son 
with dyslexia can tell you about the other brilliant people in 
the world, Whoopi Goldberg, Charles Schwab, the thoracic--head 
of the thoracic surgeons, these are all people with several 
years ago we thought was a quote ``disability.'' It is not. It 
is a disadvantage. But as someone, the chairman and I, the 
chairman will catch up with me one of these days, but as you 
learn, after--20 or 30 years after you are past the retirement 
age, you hope that people don't catch on to what your 
disadvantages are and you can keep functioning. We like our 
jobs, and so far we have fooled the public, and the chairman 
has done a better job of that than I have. So we are still 
here, and limping or getting along with our disadvantage. And I 
hope, I just hope that all of you will encourage people. 
Employers will find, and they are not in the business of 
running charities. They are not going to go out and just search 
for someone just because they happen to be in a wheelchair or 
because they happen to need certain assistance. They want 
people who can perform and we can provide them. We may have to 
provide some extra education but that saves us all money and it 
gives us real social benefits.
    So I appreciate all of your interest in this and, Chairman, 
I am pleased that you have brought this to our attention 
because I think it is something that deserves much attention 
both from the government and private industry. Thank you very 
much.
    Chairman JOHNSON. Thank you, sir.
    Mr. Brady, you are recognized.
    Mr. BRADY. Thank you, Mr. Chairman, thank you for holding 
these series of hearings. The disability program is so 
important, but I don't think it is just fine. You know, I don't 
think just modest changes will save this program. I think it is 
financially flawed. I think it is structurally flawed. I think 
it is operationally flawed, and at the heart of it is that we 
are addressing a 21st century challenge looking at it through a 
1950s lens. So much has changed and we have to, if we are 
serious about saving this program, make some bold moves, 
Republicans, Democrats together, to put it on sound footing 
again.
    You know, I think to illustrate the change all of us 
watched the Olympics, watched Oscar Pistorius from South Africa 
compete probably in a way that many disability judges would 
have said you have no chance for significant gainful 
employment. Here he is competing at the highest level. Not that 
all of those on disability can do that, but it exemplifies what 
a sea change has occurred.
    You know, I was reading through some of the information we 
had in the report from CBO that makes the point over the last 
20 years, despite the Americans with Disabilities Act, despite 
equal access to employment, all of the reasonable 
accommodations that businesses are making, the strides in 
medical treatments and surgeries and prosthetics, the fact that 
we have moved to a service economy, seventy percent of the jobs 
in most of our congressional districts are service jobs that 
pay an average of about $60,000, the financial job, Ms. 
Houghton, you are describing, so these are jobs you can raise a 
family on. Yet, while we have made all of that progress and the 
environment is changing, the employment rate among people with 
disabilities has declined by almost half. So as the environment 
has gotten better at the workplace, the number of those with 
disabilities who actually find jobs has actually been cut in 
half over 20 years; not just recent periods, 20 years. And many 
of those increasing disability claims are from younger workers 
with either mental or musculoskeletal disorders, which evidence 
shows have the best chance of staying in the workplace.
    So having said all of that, the question is, how do we 
solve it? And with the time I have remaining, Ms. Houghton, you 
in your testimony, you talked about changing the lens of how we 
look at those with disabilities from what you term a deficit-
based or medical model to a talent or social model. I don't 
understand what that means. Can you explain better what it is 
and how you would apply that to a solution on disability?
    Ms. HOUGHTON. Thank you, Mr. Brady. The medical model looks 
at an individual and what they can't do, so we see that. We see 
that in the media portrayals of people with disabilities, and 
we see it when a person with a disability--when we talk about 
business hiring people with disabilities and we say that they 
are doing it because it is a nice thing to do. Okay. The social 
model focuses on the talent perspective, and says that the 
individual is--when provided accommodations, when viewed for 
what they can do, that it is about what the person can do and 
the talent that they bring to the job.
    Mr. BRADY. Do you think the system we use today in 
disability reflects that view?
    Ms. HOUGHTON. No, I do not.
    Mr. BRADY. Anywhere close?
    Ms. HOUGHTON. I think we have been talking that the system 
was created in 1956, and that it was a different era; the 
medicine, science, technology was different.
    Mr. BRADY. I think Mr. Bertoni's point, there has been some 
movement in that direction, but fairly small, so the question I 
would ask, and we are almost out of time, unfortunately, is 
what is the most significant change we could make to actually 
bring that about?
    Ms. VOGEL. I think that there are three changes in 
particular that we want to consider. So from a SHRM 
perspective, we need a harmonization of the various definitions 
of disability. If you look across the ADA, FMLA, everybody has 
different definitions. I think if we can harmonize those 
definitions and make it simpler, I think that is number one.
    Number two, we should look at the interplay of ADA, FMLA, 
Worker's Comp, allowing ADA to really trump. And the reason, to 
your point, is because that is more about what people can do. 
How do we provide an accommodation so that you can be 
successful. Looking at it from the standpoint of workplace 
solutions, productivity tools, that is really what an 
accommodation is. And that is that social model.
    And I think the third piece is that we need to find a way 
to have much more aggressive collaboration between the 
employers and vocational rehabilitation. Voc rehab does not 
understand employers and what their perspectives are on 
providing services. We need to educate both sides, but do it in 
a way that is collaborative and that they are talking to each 
other on a very regular basis.
    Mr. BRADY. Can I ask this, Mr. Chairman, I am out of time, 
but can I ask these folks, you know, in your testimony you lay 
out much of that, but if there are some other thoughts we need 
to have as a committee, could you all submit that to us, to 
Chairman Johnson and Ranking Member Becerra? Would that be 
okay, Mr. Chairman?
    Chairman JOHNSON. That is a good point, thank you. Mr. 
Marchant, you are recognized.
    Mr. MARCHANT. Thank you, Mr. Chairman. My observation after 
these five hearings, Mr. Chairman, is that SSDI has become a 
destination for many of the workers and they spend 2 years 
proving through the court system that they are, in fact, 
disabled and cannot work, and then when they get that 
designation, then it opens the door to not a job, not training, 
but it opens the door to qualifying for food stamps. It opens 
the door for qualifying for assistance with their utilities. It 
opens the door for subsidized housing, and so all of the doors 
that seem to get opened once you achieve this destination, all 
of that ends up disincentivizing the person to go to work. And 
then when the person--and I have a 30-year old son that is a T-
6 paraplegic, has a college education, as many training 
programs as a parent can get their child training programs, 
isn't designated as SSDI, but goes to a job application and 
finds out that the health care--that the company looks at a 
particular disability and sees, how am I going to put this 
person on my health care? How am I going to accommodate this? 
And so the SSDI designation ends up being that is where you go, 
that is where you stay until you can either go off of it at age 
62, or go to 65, or get to Medicare. And it is just basically, 
instead of a way station where you go and stay because you need 
the support system there while you are trying to do better and 
you are trying to get a new career, or just start a career, it 
seems to me that all of the disincentives that business would 
never put into its system exist here. And so it is not really a 
safety net anymore. And the thing that is there, and this is 
for the panel, is there a specific designation that when you 
qualify for disability, SSDI, there is a specific written 
designation that you get and do you possess that until it is 
taken away from you? Do you have to have that? I know for food 
stamps and utility assistance and stuff like that if you will 
just present that document, I mean, there is no other 
documentation needed.
    Ms. Ford.
    Ms. FORD. Well, as has been stated for the different 
programs, there are different definitions of disability. So, 
you know, certain eligibility will open doors, as you 
mentioned, for other programs but you wouldn't necessarily have 
to have SSDI for the other programs. I would mention that when 
the health exchanges are available in 2014 that may relieve 
some of the pressure for people to go into the SSDI program. We 
are all sort of waiting to see whether that happens, whether 
people might be able to have their need for health insurance or 
Medicare covered by using the health exchanges in 2014 rather 
than having to go into the SSDI program to get in that doorway 
after 29 months into Medicare. So that may actually be a way to 
take some of the pressure off the DI program in the future.
    Mr. MARCHANT. What is the amount of money that can be 
earned by someone that qualifies for SSDI outside of that 
stipend per month? Does it fluctuate with the person, or the 
State, or----
    Ms. FORD. This is actually one of the proposals that we 
have. We think there should be a way that a person is always 
better off earning money when they are a beneficiary rather 
than not earning money. And that is what happens in the SSI 
program, but not in the DI program and that has been one of our 
proposals for a couple of decades now. But right now, it is the 
SGA level, the--what is it, $1,000, approximately $1,000 a 
month, and after a trial work period your benefits will end. 
You will have a certain grace period of about 36 months, and 
those benefits can be reinstated if you stop work. It is very 
complex, and that is the problem. And there are lots of people 
who go into the DI program who need it when they need it, but 
find later that once they have stabilized, once they have come 
to grips with the change in their life, whatever has brought 
them to the DI program, whether it is an illness, an accident, 
whatever, they come to grips with the changes. They are ready 
to go back to work. They have got the enthusiasm that Jill has 
expressed, and they want to go back to work. But the barriers 
are in their way for, as you are describing, and we need to 
find a way to remove those barriers so that these kinds of 
technical and very complex problems can be done away with.
    Now, Social Security has put forward a proposal that would 
actually help do that. It is called the Work Incentive 
Simplification Program, or WISP, that we are encouraging that 
we should pilot to make these work incentives very, very simple 
so that people don't get caught up in all the worrisome details 
and they are not afraid to go to work and potentially lose a 
critical support if they fail. So that there aren't 
complications going back and forth, and that they will be 
better off if they do try to go to work and find out whether 
they can make it. So we think that would be an important work 
simplification and work incentive.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you. Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman. Dr. Burkhauser, it 
appeared you disagreed when Ms. Ford was advocating for the 
reallocation of funds to the DI trust fund. Would you like to 
address those concerns?
    Mr. BURKHAUSER. I think that simply papering over the 
problems with DI by borrowing money from the retirement trust 
fund to the DI trust fund really misses the point; that there 
are real things going on that need to be adjusted. So while it 
is true that compared to the problems of the retirement system 
as a whole, and compared to the healthcare system, perhaps a 
disability system would only cost us $120 billion a year isn't 
such a big thing. But I think it is a big thing and it is a big 
thing because what we are doing is we are actually as Stapleton 
talked about, we are making people with disabilities worse off 
by the current system that we have. We are luring them into a 
disability program, either SSI or DI, that once in the system, 
as we just heard, it is very difficult to come out, very 
difficult to earn enough money to get around that.
    What we need to do is stop putting people on the disability 
rolls who in fact could work. Stop making them demonstrate that 
they can't work before we do a Ticket To Work where we are 
trying to provide them with work. What we need to do is figure 
out how to get those people, the early interventions, well 
before they move on to the DI rolls. These are sort of basic 
points that have to be taken care of and they can't be papered 
over by a financial trick of moving one trust fund money from 
one side to the other.
    Mr. SMITH. Thank you.
    Mr. Bertoni, Dr. Stapleton suggests that we do not yet have 
sufficient evidence to support the detailed structural changes 
to the DI program. Among other things, he proposes pilot 
projects to get better data and practice as part of a strategy 
of disability reform.
    What would you say if you could reflect a bit on your 
perspective of Social Security's track record with conducting 
demonstration projects?
    Mr. BERTONI. I would agree that there needs to be more 
study and analysis of some of these proposals to ensure that we 
are examining the best of the proposals, what they intend to 
do, but also be cognizant of the potential unintended 
consequences that can occur and get in front of those before we 
roll out any new system, or process. But in terms of SSA's 
demonstration authority and their track record, we have issued 
at least a couple of reports on this, most recently in 2008, 
looked at 14 demonstrations that they conducted over a period 
of a decade, and five of those were terminated due to real 
limitations. Four were completed, and of those nine, none of 
those yielded any policy data that could be useful to Congress. 
The remaining five were ongoing and we certainly had some 
concerns with those. That was at a cost of about $155 million 
with another projected cost of $220 million going forward for 
the remaining five. The key there was that they just didn't 
have sufficient protocols and guidance to design, implement, 
and evaluate these initiatives. And as a result, they went by 
the boards for the most part.
    We have recommended that they put some more structure 
around that, especially to protect against sort of changes in 
the administration, where folks in a new administration might 
come in, terminate perhaps some projects that could have 
promise, and sometimes we found that those terminations were 
not data driven. We really didn't see a clear rationale. And 
that is just not good. That is just taxpayer money that is not 
well spent.
    So in terms of track record, not very good. They have 
instituted some recommendations that we have asked them to do. 
We haven't revisited it. But in our most recent effort to look 
at their efforts to update their medical listings and develop 
our occupational information system we reported in that report 
that from a technical standpoint they are pretty thin in terms 
of expertise and resources to do some of these pretty 
aggressive projects.
    Mr. SMITH. So if we did move forward with a pilot program, 
should Social Security be tasked with such an effort?
    Mr. BERTONI. I think that would depend on what model you 
chose to pursue. It doesn't necessarily have to be the entity 
that would run these projects. This could be done in other 
agencies, other, you know, other levels of government, States, 
private sector. So I think it is really you have to think about 
what you want to do, what the elements of that reform system 
might look like and then decide who would be, you know, 
responsible for the pilot. But clearly, if you stay within the 
confines of the current mouse trap and try some things within 
the current system, SSA would likely have a role there. I think 
they would probably leverage the outside research community.
    Mr. SMITH. Thank you, my time is expired. I yield back.
    Chairman JOHNSON. Thank you for your comments. Without 
objection, I would like to insert into the hearing record the 
recent report from the Congressional Budget Office entitled: 
Policy Options for the Social Security Disability Insurance 
Program.
    Without objection, so ordered.
    [The prepared report follows:]
    [GRAPHIC] [TIFF OMITTED] 80315A.066
    
    [GRAPHIC] [TIFF OMITTED] 80315A.067
    
    [GRAPHIC] [TIFF OMITTED] 80315A.068
    
    [GRAPHIC] [TIFF OMITTED] 80315A.069
    
    [GRAPHIC] [TIFF OMITTED] 80315A.070
    
    [GRAPHIC] [TIFF OMITTED] 80315A.071
    
    [GRAPHIC] [TIFF OMITTED] 80315A.072
    
    [GRAPHIC] [TIFF OMITTED] 80315A.073
    
    [GRAPHIC] [TIFF OMITTED] 80315A.074
    
    [GRAPHIC] [TIFF OMITTED] 80315A.075
    
    [GRAPHIC] [TIFF OMITTED] 80315A.076
    
    [GRAPHIC] [TIFF OMITTED] 80315A.077
    
    [GRAPHIC] [TIFF OMITTED] 80315A.078
    
    [GRAPHIC] [TIFF OMITTED] 80315A.079
    
    [GRAPHIC] [TIFF OMITTED] 80315A.080
    
    [GRAPHIC] [TIFF OMITTED] 80315A.081
    
    [GRAPHIC] [TIFF OMITTED] 80315A.082
    
    [GRAPHIC] [TIFF OMITTED] 80315A.083
    
    [GRAPHIC] [TIFF OMITTED] 80315A.084
    
    [GRAPHIC] [TIFF OMITTED] 80315A.085
    
    [GRAPHIC] [TIFF OMITTED] 80315A.086
    
    [GRAPHIC] [TIFF OMITTED] 80315A.087
    
    [GRAPHIC] [TIFF OMITTED] 80315A.088
    
    [GRAPHIC] [TIFF OMITTED] 80315A.089
    
    [GRAPHIC] [TIFF OMITTED] 80315A.090
    
    [GRAPHIC] [TIFF OMITTED] 80315A.091
    

                                 <F-dash>

    Chairman JOHNSON. Thank you all for being here today. We 
are going to conclude the testimony because we are on a short 
fuse on the floor, and I want to thank all of you for 
insightful comments. Thank you so much, and thank our members 
for participating today.
    I think you are all committed, as I am, to securing the 
future of our disability program. We have got to fix it. That 
is just one more program we have to fix in this government.
    With that, the subcommittee stands adjourned. Thank you all 
for being here.
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]
    [Questions for the Record follow:]
    [GRAPHIC] [TIFF OMITTED] 80315A.092
    
    [GRAPHIC] [TIFF OMITTED] 80315A.093
    
    [GRAPHIC] [TIFF OMITTED] 80315A.094
    
    [GRAPHIC] [TIFF OMITTED] 80315A.095
    
    [GRAPHIC] [TIFF OMITTED] 80315A.096
    
    [GRAPHIC] [TIFF OMITTED] 80315A.097
    
    [GRAPHIC] [TIFF OMITTED] 80315A.098
    

                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] 80315A.099

[GRAPHIC] [TIFF OMITTED] 80315A.100

[GRAPHIC] [TIFF OMITTED] 80315A.101

[GRAPHIC] [TIFF OMITTED] 80315A.102

[GRAPHIC] [TIFF OMITTED] 80315A.103

[GRAPHIC] [TIFF OMITTED] 80315A.104

[GRAPHIC] [TIFF OMITTED] 80315A.105

[GRAPHIC] [TIFF OMITTED] 80315A.106

[GRAPHIC] [TIFF OMITTED] 80315A.107

[GRAPHIC] [TIFF OMITTED] 80315A.108

[GRAPHIC] [TIFF OMITTED] 80315A.109


                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] 80315A.110

[GRAPHIC] [TIFF OMITTED] 80315A.111

[GRAPHIC] [TIFF OMITTED] 80315A.112








                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] 80315A.113

[GRAPHIC] [TIFF OMITTED] 80315A.114




                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] 80315A.115

[GRAPHIC] [TIFF OMITTED] 80315A.116

[GRAPHIC] [TIFF OMITTED] 80315A.117

[GRAPHIC] [TIFF OMITTED] 80315A.118

[GRAPHIC] [TIFF OMITTED] 80315A.119


                                 <F-dash>

    [Submissions for the Record follow:]
                             CFE, Statement
[GRAPHIC] [TIFF OMITTED] 80315A.120

[GRAPHIC] [TIFF OMITTED] 80315A.121

[GRAPHIC] [TIFF OMITTED] 80315A.122

[GRAPHIC] [TIFF OMITTED] 80315A.123

[GRAPHIC] [TIFF OMITTED] 80315A.124





                                 <F-dash>

                            SSSC, Statement
[GRAPHIC] [TIFF OMITTED] 80315A.125

[GRAPHIC] [TIFF OMITTED] 80315A.126

[GRAPHIC] [TIFF OMITTED] 80315A.127

[GRAPHIC] [TIFF OMITTED] 80315A.128





                                 <all>

</pre></body></html>
